               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Supervisor Workhours and
                Span of Control

               Management Advisory




                                              April 4, 2013

Report Number NO-MA-13-005
                                                                             April 4, 2013

                                                            Supervisor Workhours and
                                                                      Span of Control

                                                         Report Number NO-MA-13-005



BACKGROUND:
Span of control is defined as the number      supervisor positions in relation to craft
of subordinates in an organization who        positions to achieve span of control
report directly to one supervisor. The        targets. In addition, the Postal Service
U.S. Postal Service has established a         did not always monitor span of control
span of control target of one supervisor      during the plant consolidation process.
for every 25 craft employees (1:25).          Furthermore, span of control targets
                                              could be inaccurate, as the Postal
Our objective was to assess the use of        Service had not re-evaluated them since
supervisor workhours and span of              the spring of 2011. As a result, the
control at mail processing facilities. This   Postal Service incurred excess costs
report responds to a request from the         from replacement supervisor workhours
postmaster general and chief executive        with no real added benefit.
officer and impacts mail processing
operations nationwide.                        WHAT THE OIG RECOMMENDED:
                                              We recommended the vice president,
WHAT THE OIG FOUND:                           Network Operations:
Although the Postal Service generally
reduced supervisor workhours in                  Re-evaluate span of control targets
relation to craft employee workhours, it          and determine the appropriate
did not always achieve its span of                targets.
control target. Specifically, we found
that, based on the 1:25 span of control          Fill vacant supervisor positions up to
target, there was a shortage of 412               the appropriate span of control level
regular supervisors nationwide and an             and reduce supervisor replacement
excess of 1.8 million replacement                 workhours accordingly.
supervisor workhours used in fiscal year
(FY) 2012. Replacement supervisors               Ensure that span of control targets
are craft employees used to backfill              are achieved during the
supervisors.                                      consolidation process to the fullest
                                                  extent possible.
These conditions occurred because the
Postal Service did not always adjust          Link to review the entire report
April 4, 2013

MEMORANDUM FOR:           DAVID E. WILLIAMS, JR.
                          VICE PRESIDENT, NETWORK OPERATIONS

                               E-Signed by James Ballard
                             VERIFY authenticity with e-Sign




                          for
FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Management Advisory – Supervisor Workhours and Span of
                          Control (Report Number NO-MA-13-005)

This report presents the results of our review of Supervisor Workhours and Span of
Control (Project Number 13XG002NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Linda M. Malone
    Corporate Audit and Response Management
Supervisor Workhours and Span of Control                                                                          NO-MA-13-005




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Shortage of Regular Supervisors .................................................................................... 2

Excessive Replacement Supervisor Workhours .............................................................. 3

Plant Performance Indicators .......................................................................................... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Monetary Impacts ..................................................................................... 10

Appendix C: Management's Comments ........................................................................ 11
Supervisor Workhours and Span of Control                                                             NO-MA-13-005




Introduction

This report presents the results of our review of Supervisor Workhours and Span of
Control (Project Number 13XG002NO000). The report responds to a request from the
postmaster general and chief executive officer to review the use of supervisor
workhours and span of control at mail processing facilities. This review addresses
operational risk. See Appendix A for additional information about this review.

Span of control is defined as the number of subordinates in an organization who report
directly to one supervisor and is determined by evaluating several factors (see Table 1).
The U.S. Postal Service has established two span of control targets: one for the total of
managers of distribution operations (MDO) and supervisors to craft employees (1:22)
and one for only supervisors to craft employees (1:25). 1 We are using the latter span of
control in this report.

                           Table 1. Factors Influencing Span of Control




            Sources: Public Knowledge Inc. and the Kemp Consulting Group.

1
 The criteria for span of control ratios are stated in area mail processing (AMP) worksheets and the Operations
Complement Management report.
                                                             1
Supervisor Workhours and Span of Control                                                              NO-MA-13-005



Conclusion

Although the Postal Service generally reduced supervisor workhours in relation to craft
employee workhours, 2 it did not always achieve its span of control target. Specifically,
we found that, based on the 1:25 span of control target, there was a shortage of
412 regular supervisors nationwide and an excess of 1.8 million replacement
supervisor 3 workhours used in fiscal year (FY) 2012.

These conditions occurred because the Postal Service did not always adjust supervisor
positions in relation to craft positions to achieve span of control targets. In addition, the
Postal Service did not always monitor span of control during the plant consolidation
process. 4 Furthermore, span of control targets could be inaccurate, as the Postal
Service had not re-evaluated them since the spring of 2011. As a result, the Postal
Service incurred excess costs from replacement supervisor workhours with no real
added benefit.

Shortage of Regular Supervisors

We estimated a shortage of 412 regular supervisors nationwide. To attain the span of
control target of 1:25 in FY 2012, the Postal Service would need 3,453 regular
supervisors; however, FY 2012 complement data showed only 3,041 supervisors on the
rolls (see Table 2). Consequently, the Postal Service had to use replacement
supervisors to make up the shortfall. In FY 2012, the Postal Service used about 2.6
million replacement supervisor workhours.




2
  The Postal Service reduced supervisor and craft employee workhours in the mail processing network from FYs
2010 to 2012. During this period, supervisor workhours declined by 13 percent while craft employee workhours
declined by 10 percent.
3
  Replacement supervisors are craft employees paid at a higher level to backfill supervisor absences.
4
  We calculated the supervisor to craft employee span of control for 52 AMP plant consolidations implemented in
FY 2011. Of the 43 gaining plants, only four had a span of control below the target of 1:25. The remaining 39 had a
higher span of control ranging from a high of 1:79 to a low of 1:25.

                                                          2
Supervisor Workhours and Span of Control                                                                       NO-MA-13-005




                 Table 2. Estimated Shortage of Supervisors by Plant Group 5
                                          FY 2012

                                                      Regular Supervisors
                   Number of Regular
    Plant                                                  Required         Shortage of Regular
                     Supervisors
    Group                                                   for 1:25           Supervisors
                    (October 2012)                                     6
                                                       Span of Control
       1                                  1,328                       1,470                  142
       2                                     832                                    932                                  100
       3                                     443                                    500                                   57
       4                                     204                                    263                                   59
       5                                     147                                    172                                   25
       6                                       63                                     82                                  19
       7                                       24                                     35                                  11
                                                                                        7
    Total                                 3,041                                 3,453                                  412 8
Sources: U.S. Postal Service Office of Inspector General (OIG) and Web Complement Information System
(WebCOINS).

Excessive Replacement Supervisor Workhours

We found that about 1.8 million replacement supervisor workhours used in FY 2012
were excessive. For example, to attain the span of control target of 1:25 in FY 2012,
about 6.3 million supervisor workhours would be required; however, FY 2012 data
showed that the Postal Service used about 8.1 million supervisor workhours (see Table
3). The excess replacement supervisor workhours represent 22 percent of total
supervisor workhours used in FY 2012 and resulted in questioned costs of about $12
million. See Appendix B for our detailed calculation of questioned costs.




5
  We stratified facilities that process mail into seven groups ranked by FY 2010 first-handling piece (FHP) mail
volume. A FHP is a letter, flat, or parcel that receives its initial distribution at a Postal Service facility. See Table 5 in
Appendix A for more information.
6
  We calculated the number of regular supervisors required by dividing the number of craft employees by 25.
7
  Difference due to rounding.
8
  Difference due to rounding.

                                                               3
Supervisor Workhours and Span of Control                                                    NO-MA-13-005



                Table 3. Excess Replacement Supervisor Workhours Used
                                       FY 2012

             Required
                         Total Supervisor                       Excess              Percentage of
            Supervisor
    Plant                  Workhours                          Replacement               Total
           Workhours at
    Group                   (Excluding                         Supervisor            Supervisor
              1,820 9
                            Managers)                          Workhours             Workhours
          Workhours/Year
      1               2,675,240               3,359,497                 684,257              20%
      2               1,695,701               2,161,638                 465,937              22%
      3                  910,888              1,200,024                 289,136              24%
      4                  478,325                607,979                 129,654              21%
      5                  312,603                445,761                 133,158              30%
      6                  148,366                226,544                   78,178             35%
      7                   63,278                  99,835                  36,557             37%
     Total            6,284,402               8,101,278               1,816,876              22%
Sources: OIG, WebCOINS, and Enterprise Data Warehouse (EDW).

Plant Performance Indicators

We found that using more supervisor workhours did not result in substantial benefit to
the plants. To determine whether the amount of supervisor workhours affected plant
performance, we performed correlation analyses using FY 2012 data for Group 1
plants. 10 Correlation analysis measures the relationship between two or more variables.
We compared the percentage of supervisor workhours to the following plant
performance indicators:

     FHP productivity. 11
     Overnight service scores.
     Percent overtime.
     Percent delayed mail.
     Number of accidents.

As shown in Table 4, we found that the indicators measured have almost no correlation
to the percentage of supervisor workhours used. This indicates that high usage of
replacement supervisors was not effective in improving overall plant performance.


9
  The average number of workhours used by a supervisor in a year.
10
   Group 1 plants process a minimum of 1.3 billion FHPs based on FY 2010 mail volume.
11
   We calculated FHP productivity by dividing FHP volume by Function 1 workhours.

                                                       4
Supervisor Workhours and Span of Control                                                                 NO-MA-13-005



This may be attributed to the labor agreement 12 between the Postal Service and the
American Postal Workers Union, which restricts assigning replacement supervisors to
supervisory positions for longer than 90 days or they will lose their regular bid
assignment. Because of this restriction, replacement supervisors are generally less
qualified, independent, experienced, and accountable compared to their regular
supervisor counterparts. In addition, the intent of the replacement supervisor program is
to train and develop future supervisory positions rather than serve as the primary means
of providing mail processing oversight.

                           Table 4. Group 1 Plant Performance Impacts
                                             FY 2012

                                 Coefficient of                  Effect on
                                                                                        Strength of
          Indicators             Correlation 13                 Indicator 14
                                                                                       Correlation 15
                                      (r)                           (r2)
      FHP
                                       -.064                      0.41%                  Very Weak
      Productivity
      Overnight
                                       -0.15                       2.3%                      Weak
      Service Scores
      Percent
                                        .025                     0.063%                  Very Weak
      Overtime
      Percent Delayed
                                        0.18                       3.2%                      Weak
      Mail
      Accidents                        -.016                     0.026%                  Very Weak
     Sources: OIG, Web Mail Condition Reporting System (WebMCRS), and EDW.

These conditions occurred because the Postal Service did not always adjust supervisor
positions in relation to craft positions to achieve span of control targets. In addition, the
Postal Service did not always monitor span of control during the plant consolidation
process. We calculated the supervisor to craft employee span of control for 52 AMP
plant consolidations implemented in FY 2011. Of the 43 16 gaining plants, only four had a
span of control below the 1:25 target. The remaining 39 plants had a higher span of
control, ranging from a high of 1:79 to a low of 1:25. Furthermore, span of control
targets could be inaccurate, as management had not re-evaluated them since spring of
2011.




12
   American Postal Workers Union Agreement (November 21, 2010 – May 20, 2015) Article 37.3A.8.
13
   The correlation coefficient, denoted by r, is a measure of the strength of the straight-line or linear relationship
between two variables. The correlation coefficient takes on values ranging between +1 and -1.
14                                     2
   A statistical method, denoted by r , that explains how much of the variability of a factor can be caused or explained
by its relationship to another factor.
15
   A strong relationship is indicated by a coefficient of correlation of 1 or -1 (inverse relationship). A coefficient of
correlation of .35 or less is weak with 0 indicating no relationship whatsoever.
16
   Of the 52 total AMPs, three gaining plants did not have any Function 1 staffing, 11 had consolidations from multiple
losing plants, and five consolidated operations into two gaining plants (52 minus 14 plus 5 equals 43).

                                                            5
Supervisor Workhours and Span of Control                                      NO-MA-13-005



Recommendations

We recommend the vice president, Network Operations:

1. Re-evaluate span of control targets and determine the appropriate targets.

2. Fill vacant supervisor positions to the appropriate span of control level and reduce
   supervisor replacement workhours accordingly.

3. Ensure that span of control targets are achieved during the consolidation process to
   the fullest extent possible.

Management’s Comments

Management agreed with the findings and recommendations. With regard to
recommendations 1 and 2, management agreed to re-evaluate span of control targets
and ensure authorized staffing levels are maintained at correct span of control levels as
well as reduce supervisor replacement workhours accordingly. Management also
agreed with recommendation 3 to ensure that during the consolidation process,
estimated staffing levels at gaining and losing sites are realized to the fullest extent
possible. In subsequent correspondence, management also agreed with the monetary
impact. Management plans to complete these actions by March 2014. See Appendix C
for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            6
Supervisor Workhours and Span of Control                                                              NO-MA-13-005




                                 Appendix A: Additional Information

Background

Managers and supervisors provide oversight at processing and distribution centers,
processing and distribution facilities, and post offices with mail processing operations.
Title 39, U.S.C. §101 Part 1, Chapter 1, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . .” In addition, the Postal
Accountability and Enhancement Act of 2006 17 highlights the need for the Postal
Service to increase its efficiency and reduce its costs, including infrastructure costs, to
help maintain a high quality, affordable organization. As part of Postal Service’s cost
reduction efforts, span of control 18 is an important factor to consider.

Based on a review of AMP worksheets used in the plant consolidation process and the
Postal Service's Operations Complement Management website, the Postal Service uses
an average span of control of supervisors to craft employees of 1:25. When MDOs are
added to this population, the average span of control target falls to 1:22. When
reviewing what the appropriate spans of control should be, factors such as
environmental stability, 19 nature of the work, 20 experience level of personnel, 21 and
budgetary constraints 22 should be considered. Factors used in determining appropriate
spans of control are highlighted in Table 1.




17
   Public Law 109-435, Title II, dated December 20, 2006.
18
   Span of control is defined as the number of subordinates in an organization who report directly to one supervisor.
19
   When the external environment is more stable than dynamic, more employees can be supervised by a single
manager. A stable environment is less demanding and reduces the need for quick response; thereby, more flexibility
in workhours and schedules is provided.
20
   Routine jobs, tasks that require limited skills or are focused, and tasks that require only occasional management
decision and coaching can have wider spans of control.
21
   When the average job-related experience of employees is high, employees require little training or direction so
tasks can be easily delegated. Under such situations, a supervisor’s span of control can be increased.
22
   When an organization is facing financial hardship or is downsizing, it needs to increase span of control.

                                                          7
Supervisor Workhours and Span of Control                                    NO-MA-13-005




To assess the processing and distribution network, we developed seven plant groups
based on FHP mail volume in FY 2010. Table 5 shows the mail volume breakdowns in
each group.

               Table 5. FY 2010 FHP Mail Volume Breakdowns by Group

                         Plant             FHP Volume Range
                         Group                (in millions)
                             1                  1,300 and above
                             2                    765 to 1,300
                             3                     476 to 765
                             4                     340 to 476
                             5                     221 to 340
                             6                     136 to 221
                             7                      0 to 136
                        Sources: OIG and EDW.

Objective, Scope, and Methodology

Our objective was to assess the use of supervisor workhours and the span of control at
mail processing facilities. To accomplish our objective, we:

   Identified trends in supervisor and craft employee workhours from FYs 2010 – 2012.

   Evaluated span of control based on supervisor and craft employee workhours from
    FYs 2010 – 2012.

   Evaluated the span of control based on the actual number of supervisor and craft
    employees for October 2012.

   Performed correlation analyses to determine whether a relationship existed between
    the percentage of supervisor workhours and plant performance indicators.

   Reviewed plant consolidations to determine whether span of control targets were
    achieved.

We conducted this review from October 2012 through April 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our conclusions with management on
January 28, 2013, and included their comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems, which included WebMCRS, WebCOINS, and the EDW.


                                                   8
Supervisor Workhours and Span of Control                                        NO-MA-13-005



We did not test the validity of controls over these systems. However, we verified the
accuracy of the data by confirming our analysis and results with Postal Service
managers and other data sources. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                             9
Supervisor Workhours and Span of Control                                                              NO-MA-13-005



                                    Appendix B: Monetary Impacts

                                               Monetary Impact

         Recommendation                            Impact Category                            Amount
                                                                          23
                     2                            Questioned Costs                         $11,955,046

To calculate total questioned costs, we determined the number of questioned workhours
by plant group and multiplied this number by the difference between the Executive
Administrative Schedule 17 (Salary and Fringe) rate of $49.82/workhour and the Postal
Service (PS)-6 clerk (Salary and Fringe) rate of $43.24/workhour. The difference
between these two rates is $6.58.




            Plant Group           Questioned Workhours                     Questioned Costs



                    1                        684,257                            $4,502,412
                    2                        465,937                             3,065,864
                    3                        289,136                             1,902,514
                    4                        129,654                              853,123
                    5                        133,158                              876,178
                    6                         78,178                              514,409
                    7                         36,557                              240,547
                 Total                     1,816,876                           $11,955,046
           Sources: OIG and EDW.




23
  A cost the OIG believes is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or
contract.


                                                         10
Supervisor Workhours and Span of Control                      NO-MA-13-005



                          Appendix C: Management's Comments




                                           11
Supervisor Workhours and Span of Control        NO-MA-13-005




                                           12
